Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  MOST CRITICAL ACCESS 

  HOSPITALS WOULD NOT 

   MEET THE LOCATION 

REQUIREMENTS IF REQUIRED 

TO RE-ENROLL IN MEDICARE





                    Daniel R. Levinson

                     Inspector General


                      August 2013 

                     OEI-05-12-00080 

EXECUTIVE SUMMARY: MOST CRITICAL ACCESS HOSPITALS WOULD NOT MEET
THE LOCATION REQUIREMENTS IF REQUIRED TO RE-ENROLL IN MEDICARE
OEI-05-12-00080

WHY WE DID THIS STUDY
The Critical Access Hospital (CAH) certification was created to ensure that rural beneficiaries are
able to access hospital services. Medicare reimburses CAHs at 101 percent of their reasonable
costs, rather than at the rates set by prospective payment systems or fee schedules.

Currently, hospitals can be certified as CAHs if they meet a variety of regulatory requirements,
including being located at least a certain driving distance from other hospitals (including CAHs)
and being located in rural areas. These two requirements are known as the distance requirement and
the rural requirement, respectively. Collectively, the two requirements are known as the location
requirements. Prior to 2006, States could exempt CAHs from the distance requirement by
designating them as “necessary provider” (NP) CAHs. NP CAHs are permanently exempt from
meeting the distance requirement.

HOW WE DID THIS STUDY
We plotted the locations of CAHs and other hospitals onto digital maps to determine whether CAHs
would meet the location requirements if they were required to re-enroll in Medicare. Additionally,
we calculated (using 2011 claims data) the potential savings to Medicare and beneficiaries if the
Centers for Medicare & Medicaid Services (CMS) were to decertify CAHs that would not meet the
location requirements.

WHAT WE FOUND
Nearly two-thirds of CAHs would not meet the location requirements if required to re-enroll. The
vast majority of these CAHs would not meet the distance requirement. CMS does not have the
authority to decertify most of these CAHs, as most of these CAHs are NP CAHs. However, if CMS
were authorized to reassess whether all CAHs should maintain their certifications and concluded
that some should be decertified, Medicare and beneficiaries could realize substantial savings. If
CMS had decertified CAHs that were 15 or fewer miles from their nearest hospitals in 2011,
Medicare and beneficiaries would have saved $449 million.

WHAT WE RECOMMEND
Because the CAH certification results in increased spending for both Medicare and beneficiaries,
CMS should ensure that the only CAHs to remain certified would be those that serve beneficiaries
who would otherwise be unable to reasonably access hospital services. We recommend that CMS
(1) seek legislative authority to remove NP CAHs’ permanent exemption from the distance
requirement, thus allowing CMS to reassess these CAHs; (2) seek legislative authority to revise the
CAH Conditions of Participation to include alternative location-related requirements; (3) ensure that
it periodically reassesses CAHs for compliance with all location-related requirements; and
(4) ensure that it applies its uniform definition of “mountainous terrain” to all CAHs. CMS
concurred with our first, third, and fourth recommendations, but did not concur with our second
recommendation.
                   TABLE OF CONTENTS

                   Objectives ....................................................................................................1 

                   Background ..................................................................................................1 

                   Methodology ................................................................................................7 

                   Findings......................................................................................................12 

                              Nearly two-thirds of CAHs would not meet the location 

                              requirements if required to re-enroll ..............................................12 

                              Medicare and beneficiaries could realize substantial savings if 

                              CMS were to decertify some CAHs...............................................16 

                   Conclusion and Recommendations ............................................................17 

                              Agency Comments and Office of Inspector General Response.....19 

                   Appendixes ................................................................................................21 

                              A: Distance and Rural Requirements ............................................21 

                              B: Detailed Methodology..............................................................25 

                              C: Example of Critical Access Hospital Locations Relative to 

                              Those of Other Hospitals ...............................................................30 

                              D: Agency Comments ...................................................................31 

                   Acknowledgments......................................................................................34 





Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                   OBJECTIVES
                   1.	 To determine the extent to which Critical Access Hospitals (CAH)
                       would meet the location requirements if required to re-enroll in
                       Medicare.
                   2.	 To calculate potential savings to Medicare and beneficiaries if CMS
                       decertified CAHs that would not meet the location requirements if
                       required to re-enroll in Medicare.

                   BACKGROUND
                   Critical Access Hospitals
                   In 1997, the Balanced Budget Act (BBA) created the CAH certification to
                   ensure that hospital care is accessible to beneficiaries in rural
                   communities.1, 2 Small hospitals that meet specific requirements can
                   qualify for the CAH certification and receive favorable Medicare
                   reimbursements. Medicare reimburses CAHs at 101 percent of their
                   reasonable inpatient and outpatient costs.3
                   There are more than 1,300 CAHs in the United States. CAHs are located
                   in every State except Connecticut, Delaware, Maryland, New Jersey, and
                   Rhode Island. CAHs provided care for approximately 2.3 million
                   beneficiaries in 2011. Medicare and beneficiaries paid approximately
                   $8.5 billion for this care.
                   Medicare Requirements for CAH Certification
                   Facilities must meet the requirements set forth in the CAH Conditions of
                   Participation to receive the CAH certification. Conditions of Participation
                   lay out health, safety, and location-related requirements that facilities must
                   meet to participate in the Medicare program as CAHs.
                   Because the intent of the CAH certification is to ensure access to care in
                   rural communities, CAHs must meet two location-related requirements.4
                   CAHs must be located at least a certain distance from hospitals (including
                   acute-care, psychiatric, rehabilitation, long-term, and children’s hospitals)
                   and other CAHs, and they must be located in rural areas. These


                   1
                     Balanced Budget Act of 1997, P.L. 105-33 § 4201. The BBA amended several sections
                   of the Social Security Act, including sections 1820, 1861(mm), 1814(l) and 1834(g).
                   2
                     Centers for Medicare & Medicaid Services (CMS), State Operations Manual, Pub. No.
                   100-07, ch. 2, § 2254A. Accessed at http://cms.gov on July 7, 2011.
                   3
                     Social Security Act, §§ 1814(l) and 1834(g), 42 U.S.C. §§ 1395f(l) and 1395m(g).
                   4
                     Social Security Act, § 1820(c)(2), 42 U.S.C. § 1395i-4(c)(2); CMS, State Operations
                   Manual, Pub. No. 100-07, ch. 2, § 2256F. Accessed at http://cms.gov on July 7, 2011.



Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                      1
                   two requirements are known as the distance and rural requirements,
                   respectively. Collectively, the two requirements are known as the location
                   requirements. Appendix A provides the official descriptions of the
                   location requirements.
                   Distance requirement. Facilities that wish to obtain the CAH certification
                   can meet the distance requirement in one of two ways: (1) by being
                   located more than a 35-mile drive from a hospital or another CAH or
                   (2) by being located more than a 15-mile drive from a hospital or another
                   CAH in areas of mountainous terrain or areas where only secondary roads
                   are available.5
                   CMS defines “secondary roads” as roads that are not primary roads.
                   Primary roads include Federal highways (including interstate highways),
                   State highways with two or more lanes in one direction, and roads that—in
                   accordance with U.S. Geological Survey (USGS) standards—are shown
                   on maps as primary highways.6 Secondary roads typically are one-lane
                   State highways and all other local roads.
                   Prior to 2013, CMS defined “mountainous terrain” as areas identified as
                   such on any official maps or other documents published by the State
                   agency responsible for highways in the State (typically a Department of
                   Transportation or Highways) or by USGS.7
                   In April 2013, CMS published a uniform definition of “mountainous
                   terrain” States are to use when certifying hospitals as CAHs. According to
                   this definition, roads that travel through mountainous terrain must be
                   located in a mountain range and meet one of two additional requirements
                   related to ease of travel or effort required to construct the roads.8
                   Rural requirement. Facilities that wish to obtain the CAH certification can
                   meet the rural requirement by being located either in rural areas or in areas
                   that are treated as rural.9 CMS uses a formula based on multiple criteria to
                   determine rural status. Examples of these criteria include whether a CAH
                   is located outside a metropolitan statistical area (MSA), located inside a




                   5
                     42 CFR § 485.610(c).
                   6
                     CMS, State Operations Manual, Pub. No. 100-07, ch. 2, § 2256A. Accessed at 

                   http://cms.gov on July 7, 2011. 

                   7
                     Ibid. Accessed at http://cms.gov on July 7, 2011. 

                   8
                     CMS, Clarification of the Critical Access Hospital (CAH) Criteria for Rural Location 

                   and Mountainous Terrain Distance Standard, April 19, 2013 (S&C: 13-26-CAH). 

                   Accessed at http://cms.gov on April 25, 2013. 

                   9
                     42 CFR § 485.610(b). 




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                          2
                   rural census tract, or located in an area designated as rural by State law or
                   regulation.10
                   Additional CAH requirements. To be certified as CAHs, facilities must
                   meet additional requirements beyond the location requirements described
                   above. For example, CAHs cannot have more than 25 beds that are used
                   for acute care or “swing-bed” patients, they must offer 24-hour emergency
                   services, and they must achieve an annual average length of stay for
                   patients that does not exceed 96 hours.11, 12, 13
                   Necessary Provider CAHs
                   Prior to January 1, 2006, States had discretion to designate hospitals that
                   did not meet the distance requirement as “necessary provider” (NP)
                   CAHs.14 NP CAHs had to comply with all of the other CAH Conditions of
                   Participation at their certifications, including the rural requirement.15
                   At least 40 States identified specific location-related requirements other
                   than distance that hospitals had to meet to receive the NP designation.16
                   Most of these States required CAHs to be located in areas where there was
                   a shortage of health care resources or to be located in counties where the
                   unemployment or poverty rates exceeded States’ averages.
                   Existing NP CAHs are permanently exempt from meeting the distance
                   requirement, unless they relocate. Effective January 1, 2006, the Medicare
                   Prescription Drug, Improvement, and Modernization Act prohibited the
                   creation of new NP CAHs, but allowed existing NP CAHs to retain their
                   NP designations indefinitely, as long as they continue to meet all other




                   10
                      Ibid. A metropolitan statistical area (MSA) is an urbanized area with at least 50,000

                   inhabitants. A rural census tract is a census tract that does not have significant 

                   commuting ties to an area with 2,500 or more people.

                   11
                      42 CFR § 485.620(a). A “swing bed” is a CAH bed that is reimbursed for skilled

                   nursing services. 

                   12
                      42 CFR § 485.618(a). 

                   13
                      42 CFR § 485.620(b). 

                   14
                      Balanced Budget Act of 1997, P.L. 105-33 § 4201, Social Security Act, 

                   § 1820(c)(2)(B)(i)(II), 42 U.S.C. § 1395i-4(c)(2)(B)(i)(II).

                   15
                      Balanced Budget Act of 1997, P.L. 105-33 § 4201, Social Security Act,
                   § 1820(c)(2)(B) and (e)(3), 42 U.S.C. § 1395i-4(c)(2)(B) and (e)(3).

                   16
                      Technical Assistance Center and Services Center, Necessary Provider Definitions, 

                   September 2012. Accessed at http://www.ruralcenter.org/tasc/resources/necessary-
                   provider-definitions on January 17, 2013.




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                               3
                   CAH requirements.17, 18
                   Although States are no longer able to designate new NP CAHs, most
                   CAHs are NP CAHs. At the time of this analysis, approximately
                   75 percent of all CAHs were NP CAHs.
                   Participating in Medicare as a CAH
                   To participate in Medicare as CAHs, facilities must undergo a certification
                   process. During this process, CMS verifies that facilities meet all of the
                   requirements included in the CAH Conditions of Participation.19, 20, 21 If
                   CMS finds facilities to be compliant, it approves them for CAH
                   certifications.22
                   Evaluation of the location requirements during certification. Since the
                   creation of the CAH certification in 1997, there have been changes in how
                   CMS evaluates the location requirements during the certification process.
                   Currently, during the certification process, CMS verifies that prospective
                   CAHs meet the distance and rural requirements. 23 Prior to 2006, when
                   States were able to designate CAHs as NPs, CMS verified that prospective
                   non-NP CAHs met the distance requirement and that both prospective NP
                   and non-NP CAHs met the rural requirement. 24 As previously stated, NP
                   CAHs were exempt from meeting the distance requirement at the time of
                   their certifications.
                   Maintaining the CAH Certification
                   CAHs are subject to periodic reassessments of their compliance with the
                   CAH Conditions of Participation. According to CMS staff, these

                   17
                      Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                   P.L. 108-173 § 405(h), Social Security Act, § 1820(c)(2)(B)(i)(II),
                   42 U.S.C. § 1395i-4(c)(2)(B)(i)(II).

                   18
                      Medicare Prescription Drug, Improvement, and Modernization Act of 2003, 

                   P.L. 108-173 §405(h), Social Security Act, § 1820(h), 42 U.S.C. § 1395i-4(h).
                   19
                      CMS, State Operations Manual, Pub. No. 100-07, ch. 2, § 2256A. Accessed at
                   http://cms.gov on July 7, 2011.
                   20
                      In rare cases, CMS would also verify that hospitals meet all of the requirements
                   included in the hospital Conditions of Participation.
                   21
                      State agencies survey CAHs for compliance with the CAH Conditions of Participation
                   prior to CMS verification. Accreditations from one of the three CMS-approved CAH
                   Medicare accreditation programs can replace State agency survey and certification or
                   reassessment for CAHs. Organizations that maintain CAH Medicare accreditation
                   programs include the Joint Commission; the American Osteopathic Association; and Det
                   Norske Veritas Healthcare, Inc.
                   22
                      CMS, State Operations Manual, Pub. No. 100-07, ch. 2, §§ 2256 A–B. Accessed at
                   http://cms.gov on July 7. 2011.
                   23
                      CMS, State Operations Manual, Pub. No. 100-07, ch. 2, §§ 2256A. Accessed at 

                   http://cms.gov on April 29, 2013. 

                   24
                      Ibid. Accessed at http://cms.gov on July 7, 2011. 




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                       4
                   reassessments must take place every 3 years, on average. For CAHs to
                   maintain their certifications, CMS or a CMS-approved Medicare CAH
                   accreditation program must verify that the CAHs continue to meet all
                   CAH Conditions of Participation.25
                   Further evaluation of the location requirements. Prior to 2013, CMS did
                   not periodically reassess whether CAHs continued to meet the location
                   requirements. CMS guidance required that non-NP CAHs’ compliance
                   with the distance requirement and non-NP and NP CAHs’ compliance with
                   the rural requirement be verified only during the initial certification
                   process.26 Because CMS did not routinely reassess whether CAHs
                   continued to meet the location requirements, most CAHs that did not meet
                   the requirements retained their critical access certifications.
                   In March 2013, CMS removed the limitation that it assess compliance
                   with locations requirements only during the certification process.27 As a
                   result, non-NP CAHs that do not meet the distance requirement and
                   non-NP and NP CAHs that do not meet the rural requirement at the time of
                   these reassessments can now be decertified and given the opportunity to
                   convert to certified Medicare hospitals (after demonstrating compliance
                   with the hospital Conditions of Participation).28 NP CAHs are statutorily
                   exempt from meeting the distance requirement.
                   CMS reassesses whether CAHs meet the rural requirement (and in some
                   cases, the distance requirement) if CAHs relocate or have changes of
                   ownership and the new owners do not assume the existing provider
                   agreement.29, 30 In the case of non-NP CAHs, CMS reassesses whether
                   they meet both requirements. In the case of NP CAHs, CMS reassesses
                   whether they meet the rural requirement but does not reassess whether



                   25
                      CMS, State Operations Manual, Pub. No. 100-07, ch. 2, §§ 2021A and 2022B.
                   Accessed at http://cms.gov on July 7, 2011. 

                   26
                      CMS, State Operations Manual, Appendix W – Survey Protocol, Regulations and 

                   Interpretive Guidelines for Critical Access Hospitals (CAHs) and Swing-Beds in CAHs, 

                   § C-0160. Accessed at http://cms.gov on July 7, 2011. 

                   27
                      CMS, Guidance for Hospitals, Critical Access Hospitals (CAHs) and Ambulatory 

                   Surgical Centers (ASCs) Related to Various Rules Reducing Provider/ Supplier Burden, 

                   March 15, 2013 ( S&C: 13-20-Acute Care), p. 119. Accessed at http://cms.gov on
                   April 25, 2013.
                   28
                      Ibid. 

                   29
                      CMS, State Operations Manual, Appendix W – Survey Protocol, Regulations and 

                   Interpretive Guidelines for Critical Access Hospitals (CAHs) and Swing-Beds in CAHs, 

                   § C-0160. Accessed at http://cms.gov on July 7, 2011. 

                   30
                      CMS, State Operations Manual, Pub. No. 100-07, ch. 2, § 2256. Accessed at
                   http://cms.gov on July 7, 2011.



Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                       5
                   they meet the distance requirement.31 CAHs must notify CMS of any
                   changes in their location or ownership.32
                   Payments for CAH Services
                   CMS pays CAHs under a system different from that for paying most other
                   hospitals. CAHs receive 101 percent of their “reasonable costs” for most
                   services provided.33, 34 CMS determines these costs using information
                   from CAHs’ cost reports.35 CMS pays most other hospitals using inpatient
                   and outpatient prospective payment systems (IPPS and OPPS), which pay
                   predetermined rates for treating beneficiaries.36, 37 Inpatient services are
                   paid on the basis of the patients’ diagnoses, while outpatient services are
                   paid on the basis of the services provided.
                   Like other Medicare beneficiaries, beneficiaries who receive services at
                   CAHs are responsible for paying a deductible and coinsurance for
                   inpatient services.38 However, the inpatient deductible and coinsurance are
                   the same whether services were provided at a CAH or at a hospital paid
                   under IPPS.39
                   Additionally, like other Medicare beneficiaries, beneficiaries who receive
                   services at CAHs are responsible for paying a deductible and coinsurance
                   for outpatient services.40 CAHs’ cost-based reimbursement method results
                   in coinsurance calculated from submitted charges rather than from final
                   costs for services provided, making coinsurance a relatively high
                   percentage of final total payments. Medicare beneficiaries generally do
                   not pay coinsurance for outpatient laboratory services and certain
                   preventive outpatient services.41
                   Proposed CAH Changes
                   Medicare payments to CAHs have come under increased scrutiny as part
                   of ongoing deficit-reduction discussions. In September 2011, the

                   31
                      If an NP CAH relocates and will not continue to serve essentially the same service 

                   area, it will need to meet the distance requirement. CMS, State Operations Manual, 

                   Pub. No. 100-07, ch. 2, § 2256F. 

                   32
                      42 CFR § 424.516(e). 

                   33
                      Social Security Act, §§ 1814(l) and 1834(g), 42 U.S.C. §§ 1395(l) and 1395m(g). 

                   34
                      “Reasonable costs” are the direct and indirect costs associated with providing services 

                   to Medicare beneficiaries. 42 CFR § 413.9(b)(1). 

                   35
                      42 CFR § 413.20(a). 

                   36
                      Social Security Act, § 1886(d) and (g), 42 U.S.C. § 1395ww(d) and (g).

                   37
                      Social Security Act, § 1833, 42 U.S.C. § 1395l.

                   38
                      Social Security Act, § 1866(a)(2)(A), 42 U.S.C. § 1395cc(a)(2)(A). 

                   39
                      Social Security Act, § 1813(a)(1), 42 U.S.C. § 1395e(a)(1). Inpatient coinsurance is a

                   percentage of the inpatient deductible, which is a fixed amount set annually by law. 

                   40
                      Social Security Act, § 1866(a)(2)(A), 42 U.S.C. § 1395cc(a)(2)(A). 

                   41
                      Social Security Act, § 1833(a)(1), 42 U.S.C. § 1395l(a)(1).




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                             6
                   President published his Plan for Economic Growth and Deficit
                   Reduction.42 The Plan proposed reducing CAH reimbursements to
                   100 percent of reasonable costs and eliminating the critical access
                   certification for CAHs fewer than 10 miles from another hospital.43 The
                   President’s proposed budget for fiscal year 2014 made the same
                   recommendations and estimated the savings over 10 years to be
                   $1.4 billion from reducing reimbursement to 100 percent of reasonable
                   costs (from 101 percent) and $690 million from eliminating the critical
                   access certifications of CAHs located fewer than 10 miles from another
                   hospital.44
                   Related Work
                   In 1996 and 2003, the Office of Inspector General (OIG) issued reports
                   that focused on rural health clinic (RHC) program compliance. Like the
                   intent of CAHs, the intent of RHCs is to ensure accessible health care to
                   Medicare beneficiaries in rural communities. In both studies, OIG found
                   numerous RHCs noncompliant with the requirements that they be located
                   in rural and underserved areas. Additionally, OIG found that the
                   requirements did not effectively prevent RHC participation in areas with
                   existing health care providers.45, 46
                   OIG is conducting a nationwide review of swing-bed services at CAHs.47
                   OIG is comparing the reimbursement for swing-bed services at CAHs to
                   the reimbursement for the same level of care obtained at skilled nursing
                   facilities for 2005–2010.

                   METHODOLOGY
                   To determine the extent to which CAHs would meet the location
                   requirements if required to re-enroll in Medicare, we plotted CAHs’ and
                   hospitals’ locations onto digital maps using ArcGIS, a type of mapping
                   and spatial analysis software. We also surveyed CMS and State agencies
                   to collect information about rural areas and mountainous terrain.


                   42
                      Office of Management and Budget, Living Within Our Means and Investing in the 

                   Future: The President’s Plan for Economic Growth and Deficit Reduction, September 

                   2011. Accessed at http://www.whitehouse.gov on October 24, 2011.

                   43
                      Ibid., p. 36. 

                   44
                      OMB, Fiscal Year 2014 Budget of the U.S. Government, p. 196, 2013.

                   45
                      OIG, Rural Health Clinics: Growth, Access, and Payment, OEI-05-94-00040, 

                   July 1996. 

                   46
                      OIG, Status of Rural Health Clinic Program, OEI-05-03-00170, August 2005. 

                   47
                      OIG, U.S. Department of Health and Human Services Office of Inspector General 

                   Work Plan: Fiscal Year 2013, Part 1, p. 7. Accessed at http://oig.hhs.gov on
                   July 23, 2013.



Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                     7
                   To calculate the potential savings to Medicare and beneficiaries if CMS
                   were to decertify some CAHs that would not meet the location
                   requirements if required to re-enroll, we analyzed 2011 claims data.
                   For a detailed description of the methodology, see Appendix B.
                   Scope
                   We limited our review to the location requirements used by CMS to certify
                   CAHs. We determined whether CAHs would meet the location
                   requirements if required to re-enroll, but we did not determine whether
                   they would meet the remaining CAH Conditions of Participation.
                   Further, we did not examine the types of services or quality of services
                   provided by CAHs. We performed a limited review of emergency service
                   availability—we determined whether nearby facilities provided emergency
                   services, but we did not compare the complexity of the emergency
                   services provided at these locations to the services provided at CAHs.
                   Data Sources and Collection
                   Hospital information. To identify CAHs’ and hospitals’ locations, we used
                   the Certification and Survey Provider Enhanced Reports (CASPER)
                   database.48 To identify CAHs and hospitals that had emergency
                   departments, we used CMS’s 2011 National Claims History (NCH)
                   inpatient and outpatient files. Finally, CMS provided us a list of all NP
                   CAHs.
                   Distance requirement. To determine whether CAHs would meet the
                   distance requirement if required to re-enroll, we used CAHs’ and
                   hospitals’ locations and two additional sources:
                        1.	 Roadway classification codes from the ArcGIS U.S. and Canada
                            Streets dataset to identify primary and secondary roads.49
                        2.	 Survey of all States’ Departments of Transportation regarding areas
                            of mountainous terrain.
                   Rural requirement. To determine whether CAHs would meet the rural
                   requirement if required to re-enroll, we used CAHs’ locations, the U.S.
                   Census Bureau’s 2010 MSA files, the U.S. Department of Agriculture’s
                   list of rural census tracts, and documents from States’ Departments of
                   Rural Health that identify areas designated as rural by State law or
                   regulation.

                   48
                      The CASPER database includes data generated from certification surveys and includes
                   information such as provider addresses and enrollment dates. 

                   49
                      Tom Tom, Data and Maps for ArcGIS, U.S. and Canada Detailed Streets Metadata, 

                   2012. 




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                       8
                   Potential savings. To calculate potential savings to Medicare and
                   beneficiaries if CMS were to decertify CAHs that would not meet the
                   location requirements, we used CMS’s 2011 NCH inpatient and outpatient
                   files.
                   Data Analysis
                   Hospital locations. To plot CAHs’ and hospitals’ locations, we first
                   retrieved addresses for the 4,751 active hospitals and 1,329 active CAHs
                   in the CASPER database. We then plotted all of the hospitals’ and CAHs’
                   locations onto a digital map using ArcGIS. This digital map served as the
                   foundation of our analysis of whether CAHs would meet the location
                   requirements if required to re-enroll.
                   Distance requirement. To determine whether CAHs would meet the
                   distance requirement if required to re-enroll, we first determined the
                   driving distance from each CAH to the nearest hospital or other CAH
                   using ArcGIS. We stopped at this point for CAHs greater than 35 miles or
                   15 miles or fewer from the nearest hospital or other CAH, as driving
                   distances alone were enough to determine that the first group of CAHs
                   would meet the distance requirements and that the second group would
                   not. For each of the remaining CAHs—those more than 15 and up to
                   35 miles from the nearest hospital or other CAH—we analyzed routes to
                   the nearest hospital or other CAH and survey responses from States’
                   Departments of Transportation to determine the number of miles that were
                   through mountainous terrain or on secondary roads.
                   Emergency services at hospitals near CAHs. To determine whether CAHs
                   were providing services that beneficiaries could not get at nearby
                   hospitals, we determined whether CAHs that would not meet the distance
                   requirement were located near hospitals or other CAHs that provided
                   emergency services. Emergency services are one of several types of
                   services that CAHs are required to provide.
                   We used the 2011 NCH inpatient and outpatient files to identify CAHs and
                   hospitals that Medicare paid for emergency services. We then determined
                   how many of the hospitals or CAHs nearest to the CAHs that would not
                   meet the distance requirement Medicare had paid for emergency services
                   in 2011.
                   Rural requirement. To determine whether CAHs would meet the rural
                   requirement if required to re-enroll, we used ArcGIS and the MSA files to
                   determine whether CAHs were located outside MSAs. Next, for CAHs
                   that were located inside MSAs, we determined whether they were located
                   in rural census tracts. Finally, for CAHs that were located inside MSAs
                   and not located in rural census tracts, we used States’ documents to


Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                            9
                   determine whether they were located in areas designated as rural by the
                   States.
                   NP CAH analysis. We used the list of NP CAHs to determine how many
                   CAHs that would not meet the location requirements were NPs.
                   Compliance with location requirements not possible to determine. For
                   some CAHs, we could not determine whether they would meet the
                   location requirements. We discuss the reason why a determination was
                   not possible in a finding.
                   Potential savings. We used the 2011 inpatient and outpatient NCH files to
                   calculate potential savings to Medicare and beneficiaries if CMS were to
                   decertify some CAHs that would not meet the location requirements. We
                   included all inpatient services in this analysis, but only some outpatient
                   services. The outpatient services we selected include clinic and
                   emergency department visits; significant outpatient procedures and
                   services provided along with these procedures, such as pathology services
                   and x-ray services; imaging services; services paid under a fee schedule or
                   payment system other than the OPPS; and outpatient laboratory services.
                   These services represent approximately 60 percent of all outpatient
                   services provided at CAHs that would not meet the location requirements
                   if required to re-enroll and 47 percent of the outpatient services for which
                   beneficiaries paid coinsurance. The payments to CAHs for these selected
                   outpatient services represent approximately 67 percent of Medicare and
                   beneficiary payments for all outpatient services provided at CAHs that
                   would not meet the location requirements if required to re-enroll.
                   We calculated potential savings to Medicare and beneficiaries if CMS
                   were to decertify some CAHs that would not meet the location
                   requirements. We did this by comparing what CMS paid for inpatient and
                   selected outpatient services at these CAHs in 2011 to what they would
                   have paid for these services under prospective payment systems and fee
                   schedules (hereinafter known as the “base rates”). Table 1 describes the
                   formulas we used to compute the savings to Medicare and beneficiaries
                   for inpatient and selected outpatient services.




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                             10
Table 1: Formulas Used To Compute Savings to Medicare and Beneficiaries If CMS Were
To Decertify Some CAHs That Would Not Meet the Location Requirements If Required To
Re-enroll in Medicare


Type of Service                                              Medicare Savings                  Beneficiary Savings

                                                                                      We did not attempt to calculate
                                                                                     potential beneficiary savings for
                                Medicare payments to CAHs that would not meet
                                                                                   inpatient stays, as deductible and
Inpatient services                                    the location requirements
                                                                                        coinsurance amounts are the
                                   minus base rates minus beneficiary inpatient
                                                                                      same for services received at a
                                                                     deductibles
                                                                                   CAH and at a hospital paid under
                                                                                                                IPPS
                                                                                     Coinsurance payments to CAHs
                                Medicare payments to CAHs that would not meet
                                                                                     that would not meet the location
Outpatient services with                              the location requirements
                                                                                                        requirements
beneficiary coinsurance                     minus base rates minus beneficiary
                                                                                        minus coinsurance payments
                                                                   coinsurances
                                                                                                     under the OPPS
                                Medicare payments to CAHs that would not meet
Outpatient services with no
                                                      the location requirements                                   N/A
beneficiary coinsurance
                                                              minus base rates

Source: OIG analysis method.



                     Limitations
                     We adopted a conservative definition of “primary roads” that likely
                     resulted in an underestimate of the number of CAHs that would not meet
                     the distance requirement if required to re-enroll. We were not able to
                     identify all primary roads because the dataset we used did not include the
                     number of lanes each road contained. Instead, we adopted a conservative
                     definition of “primary roads,” defining them only as interstate and Federal
                     highways. We classified all State highways, including those with two or
                     more lanes in one direction, as secondary roads.
                     We used an older dataset for our distance analysis that may have resulted
                     in a further underestimate of the number of CAHs that would not meet the
                     distance requirement if required to re-enroll. We used a dataset published
                     in 2007 to find routes between CAHs and their nearest hospitals. More
                     recent datasets would contain newly constructed roads that might reduce
                     the driving distances between CAHs and the hospitals closest to them.
                     Our figures for potential per-CAH savings for Medicare and beneficiaries
                     are likely low and should be considered conservative estimates, given that
                     our analyses did not include all services performed at the CAHs that
                     would not meet the location requirements. We included only inpatient
                     services and some outpatient services in our calculations.
                     Standards
                     This study was conducted in accordance with the Quality Standards for
                     Inspection and Evaluation issued by the Council of the Inspectors General
                     on Integrity and Efficiency.


Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                                     11
                   FINDINGS
                   Nearly two-thirds of CAHs would not meet the location
                   requirements if required to re-enroll
                   Overall, 849 of the 1,329 CAHs (64 percent) would not meet the location
                   requirements if required to re-enroll in Medicare. The vast majority of
                   these CAHs would not meet the distance requirement, and only three of
                   these CAHs would not meet the rural requirement. Approximately
                   1.2 million beneficiaries received services at these CAHs in 2011.
                   Eight hundred forty-six CAHs would not meet the distance
                   requirement
                   Of the 846 CAHs that would not meet the distance requirement if required
                   to re-enroll, 306 were located a drive of 15 or fewer miles from their
                   nearest hospitals or other CAHs (and, therefore, had 15 or fewer miles of
                   their routes going through mountainous terrain or on secondary roads.)
                   Figure 1 illustrates the distribution of driving distances for these CAHs.
                   Of these CAHs, 235 were between 10–14 miles from their nearest
                   hospitals or other CAHs. The other 71 CAHs were less than a 10-mile
                   drive from their nearest hospitals or other CAHs.
                   Figure 1: The Distribution of Driving Distances for CAHs That Would Not
                   Meet the Distance Requirement That Are a Drive of 15 or Fewer Miles From
                   Their Nearest Hospitals or Other CAHs

                                         80
                                         70
                                         60
                        Number of CAHs




                                         50
                                         40
                                         30
                                         20
                                         10
                                         0
                                              <1   1   2    3    4   5     6     7     8      9    10 11 12 13 14 

                                                       Miles from CAHs to nearest hospitals or other CAHs


                   Source: OIG analysis of CAHs’ distances to their nearest hospitals or other CAHs.

                   The remaining 540 CAHs were located between 15 and up to 35 miles
                   from their nearest hospitals or other CAHs. These CAHs had 15 or
                   fewer miles of their routes going through areas of mountainous terrain or

Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                                  12
                   areas where only secondary roads were available. Figure 2 illustrates the
                   distribution of driving distances for these CAHs and the average number
                   of miles of their routes that traveled though areas of mountainous terrain
                   or were on secondary roads. On average, the routes from these CAHs to
                   their nearest hospitals or other CAHs traveled through approximately
                   5 miles of mountainous terrain or secondary roads.
                   Figure 2: The Distribution of Driving Distances for CAHs That Were
                   Between 15 and up to 35 Miles From Their Nearest Hospitals or Other CAHs
                   and the Average Numbers of Miles of Their Routes That Were Through
                   Mountainous Terrain or on Secondary Roads
                      45

                      40

                      35

                      30

                      25                                                                               Number of CAHs

                      20

                      15

                      10                                                                               Average miles on
                                                                                                       moutainous terrain
                        5
                                                                                                       or secondary roads
                        0
                             15 16 17 18 19 20 21 22 23 24 25 26 27 28 29 30 31 32 33 34
                                  Miles from CAHs to nearest hospitals or other CAHs

                   Source: OIG analysis of CAHs’ distances to their nearest hospitals or other CAHs.




                   CAHs that would not meet the distance requirement if required to re-enroll
                   were most often located near other CAHs. Approximately 50 percent were
                   located nearest to other CAHs; 43 percent were located nearest to
                   acute-care hospitals; and the remaining 7 percent were located nearest to
                   other types of hospitals, such as psychiatric or rehabilitation hospitals. For
                   an example of CAHs’ locations relative to those of other CAHs and
                   hospitals in an average State, see Appendix C.
                   Most of the CAHs and hospitals that were located near CAHs that would
                   not meet the distance requirement if required to re-enroll provided
                   emergency services in 2011. Approximately 93 percent of CAHs and
                   hospitals (including acute-care hospitals and other types of hospitals)
                   located near these CAHs provided emergency services. Most hospitals
                   that were near CAHs and that did not provide emergency services were


Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                                  13
                   psychiatric hospitals. Table 2 provides the number of all CAHs and
                   hospitals that were near CAHs and that did not provide emergency
                   services.
                   Table 2: CAHs and Hospitals That Were Near CAHs and That Did Not
                   Provide Emergency Services in 2011


                     Type of Hospital                                  Number That Did Not Provide
                                                                              Emergency Services

                     Psychiatric hospital                                                              34

                     Acute-care hospital                                                               15

                     Long-term-care hospital                                                           4

                     Rehabilitation hospital                                                           3

                     CAH                                                                               1
                     Source: OIG analysis of CAHs and hospitals that are near CAHs and that do not 

                     provide emergency services.





                   Most CAHs that would not meet the location requirements are
                   NP CAHs
                   Of the 849 CAHs that would not meet the location requirements if
                   required to re-enroll, 88 percent were NP CAHs. NP CAHs did not have
                   to meet the distance requirement when they were initially certified.
                   Further, NP CAHs are permanently exempt from meeting the distance
                   requirement because of statutory provisions. Table 3 provides the number
                   of NP and non-NP CAHs that would not meet the location requirements if
                   required to re-enroll.
                   Table 3: Number of NP and Non-NP CAHs That Would Not Meet the
                   Location Requirements If Required to Re-enroll in Medicare


                                             Number of CAHs That Would               Number of CAHs That
                                                  Not Meet the Distance            Would Not Meet the Rural     Total
                                                          Requirement                         Requirement

                     NP CAHs
                                                                           749                              2    751
                     (n=994)

                     Non-NP CAHs
                                                                            97                              1     98
                     (n=335)

                        Total                                              846                              3    849

                     Source: OIG analysis of NP and non-NP CAHs.


                   NP and non-NP CAHs that would not meet the location requirements if
                   required to re-enroll differed in several ways. NP CAHs were located
                   closer and had shorter driving times to their nearest hospitals than non-NP


Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                                   14
                   CAHs. Most CAHs located in metropolitan areas were NP CAHs.
                   Further, most CAHs that would not meet location requirements and were
                   owned by private, for-profit organizations were NP CAHs.
                   Table 4 describes these differences between NP and non-NP CAHs that
                   would not meet the location requirements if required to re-enroll.
                   Table 4: Differences Between NP and Non-NP CAHs That Would Not Meet
                   the Location Requirements If Required To Re-enroll


                                                              NP CAHs                  Non-NP CAHs

                     Average distance to nearest
                                                             18.8 miles                   20.7 miles
                     hospital

                     Average time to nearest
                                                           29.3 minutes                 31.1 minutes
                     hospital

                     Located in metropolitan
                                                             151 (87%)                     22 (13%)
                     areas (n= 173)

                     Owned by private, for-profit
                                                               40 (82%)                     9 (18%)
                     entities (n= 49)

                     Source: OIG analysis of differences between NP and non-NP CAHs.




                   For 62 CAHs, it was not possible to determine whether they
                   would meet the location requirements if required to re-enroll
                   For 62 CAHs, it was not possible to determine whether they would meet
                   the distance requirement if required to re-enroll because CMS’s guidance
                   at the time of our analysis did not reference a uniform definition of
                   “mountainous terrain” and not all States have a definition of “mountainous
                   terrain.” USGS’s Web site stated that the agency does not have an official
                   definition despite CMS’s naming USGS as a source of this information in
                   guidance to State survey agencies. Additionally, Department of
                   Transportation staff of at least one State that did not have a definition
                   would not provide OIG a subjective determination of what they consider
                   to be mountainous terrain.




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                       15
                   Medicare and beneficiaries could realize substantial
                   savings if CMS were to decertify some CAHs
                   Medicare and beneficiaries could realize substantial savings if CMS
                   decertified some CAHs that would not meet the location requirements if
                   required to re-enroll in Medicare. Medicare would reimburse decertified
                   CAHs at the rates set by prospective payment systems and fee schedules
                   rather than at 101 percent of costs. Rates set by the prospective payment
                   systems and fee schedules are typically lower than the rates that CAHs
                   receive for most services.
                   Medicare could realize substantial savings if CMS were to
                   decertify some CAHs
                   Because services provided at CAHs are typically reimbursed at rates that
                   are higher than the base rates, Medicare could realize substantial savings if
                   CMS were to decertify some CAHs that would not meet the location
                   requirements. For example, if CMS had decertified all CAHs located
                   15 or fewer miles from their nearest hospitals or other CAHs, Medicare
                   could have saved an estimated $268 million in 2011. Additionally, if CMS
                   had decertified half of all CAHs that would not meet the location
                   requirements, Medicare could have saved an estimated $373 million in
                   2011. On average, Medicare could have saved approximately
                   $860,000 per decertified CAH in 2011.50
                   Beneficiaries could realize substantial savings in coinsurance
                   if CMS were to decertify some CAHs
                   Because coinsurance amounts for services provided at CAHs are
                   calculated on the basis of charges rather than final costs, beneficiaries pay
                   more for services at these facilities than they likely would for the same
                   services at acute-care hospitals. For example, if CMS had decertified all
                   CAHs located 15 or fewer miles from their nearest hospitals or other
                   CAHs, beneficiaries could have saved an estimated $181 million in
                   coinsurance in 2011. Additionally, if CMS had decertified half of the
                   CAHs that would not meet the location requirements, beneficiaries could
                   have saved an estimated $200 million in coinsurance in 2011. On average,
                   beneficiaries could have saved an estimated $485,000 in coinsurance per
                   decertified CAH, or approximately $400 per CAH beneficiary who
                   received outpatient services, in 2011.51




                   50
                        This amount includes payments for inpatient and selected outpatient services.
                   51
                        This amount includes coinsurance for selected outpatient services.



Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                        16
                   CONCLUSION AND RECOMMENDATIONS
                   Sixty-four percent of CAHs would not meet the location requirements if
                   required to re-enroll in Medicare. Most of these CAHs are NP CAHs that
                   would not meet the distance requirement. CMS is not authorized to
                   decertify these CAHs because NP CAHs are statutorily exempt from
                   meeting the distance requirement. Further, prior to April 2013, CMS did
                   not evaluate whether non-NP CAHs continued to meet the location
                   requirements after they enrolled in Medicare.

                   Medicare and beneficiaries could realize substantial savings if CMS were
                   authorized to reassess whether all CAHs should retain their certifications
                   and concluded that some should be decertified. For example, we
                   calculated that Medicare and beneficiaries could have saved more than
                   $1.3 million per decertified CAH in 2011. These savings would come
                   from paying the decertified CAH at the rates set by prospective payment
                   systems and fee schedules. These CAHs would have the option to remain
                   enrolled in Medicare as acute-care hospitals.

                   Because the CAH certification results in increased spending for both
                   Medicare and beneficiaries, CMS should ensure that the only CAHs to
                   retain the critical access certification are those that continue to serve
                   beneficiaries who would otherwise be unable to reasonably access hospital
                   services.

                   To do this, we recommend that CMS:
                   Seek Legislative Authority To Remove Necessary Provider
                   CAHs’ Permanent Exemption From the Distance Requirement,
                   Thus Allowing CMS To Reassess These CAHs
                   NP CAHs’ permanent exemption from the distance requirement prevents
                   CMS from periodically reassessing these CAHs. NP CAHs may have
                   provided beneficiaries needed access to hospital services when originally
                   certified, and many of them may continue to do so now. However, CMS
                   should periodically reassess whether these CAHs are still providing this
                   access and are deserving of increased financial support from Medicare and
                   beneficiaries.
                   Seek Legislative Authority to Revise the CAH Conditions of
                   Participation To Include Alternative Location-Related
                   Requirements
                   The CAH Conditions of Participation currently include two
                   location-related requirements: the distance and rural requirements.
                   However, most CAHs are NPs that were granted their CAH certifications
                   because they met State-defined location-related requirements. To ensure

Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                             17
                   that CMS can evaluate whether these and other CAHs serve beneficiaries
                   who would otherwise be unable to reasonably access hospital services,
                   CMS should include alternative location-related Conditions of
                   Participation by which to further evaluate CAHs that would otherwise lose
                   their certifications because they did not meet the distance or rural
                   requirements. For example, CMS could allow CAHs to keep their
                   certifications if they serve communities with high poverty rates, even if
                   they don’t meet the location requirements.
                   Including these alternative location-related requirements would allow
                   CMS to make better-informed decisions about which CAHs should retain
                   their certifications. We strongly encourage CMS to include only
                   requirements that it can assess in a uniform manner on a national level.
                   For guidance on alternative location-related requirements, CMS could
                   reference States’ NP criteria.
                   Under separate cover, we have referred to CMS the CAHs that would not
                   meet the location requirements if required to re-enroll. CMS could
                   prioritize reassessing these CAHs after it updates the CAH Conditions of
                   Participation. CMS could also conduct an evaluation of these CAHs,
                   outside the current reassessment schedule, to determine whether these
                   CAHs should retain their certifications.
                   Ensure That It Periodically Reassesses CAHs’ Compliance
                   With All Location-Related Conditions of Participation
                   In March 2013, CMS began requiring that CAHs submit to periodic
                   reassessment of the distance and location requirements. CMS should
                   ensure that these periodic reassessments continue and that these
                   reassessments include any additional location-related requirements that it
                   may add to the CAH Conditions of Participation in the future.
                   While performing these periodic reassessments, CMS may determine that
                   some CAHs should be decertified. CMS could grant a transition period
                   during which decertified CAHs would gradually move from cost-based
                   payments to the prospective payment systems and fee schedules.
                   Ensure That It Applies Its Uniform Definition of “Mountainous
                   Terrain” to All CAHs
                   In April 2013, CMS published a uniform definition of “mountainous
                   terrain.” CMS should ensure that it uses this definition during periodic
                   reassessments of CAHs’ compliance with the CAH Conditions of
                   Participation, as well as during the certification of new CAHs.




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                18
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our first, third, and fourth recommendations, but did
                   not concur with our second recommendation. CMS’s responses to our
                   recommendations indicate a desire to balance preserving beneficiary
                   access to care with promoting payment efficiency. OIG also believes that
                   future management of CAHs should balance these competing objectives
                   and urges CMS to take all of the actions described in our
                   recommendations.
                   CMS concurred with our first recommendation—seek legislative authority
                   to remove necessary provider CAHs’ permanent exemptions—thus
                   allowing CMS to reassess whether these CAHs should retain their critical
                   access certifications. However, the actions described by CMS did not
                   address the main point of our recommendation, which was to remove the
                   permanent exemption status from all NP CAHs. CMS indicated that it
                   supports the plan outlined in the President’s FY 2014 budget to decertify
                   all CAHs that are fewer than 10 miles from the nearest hospital or CAH.
                   If CMS took only this action, it would have authority to reassess only
                   71 of the NP CAHs. We continue to recommend that CMS seek
                   legislative authority to remove the necessary provider exemption from the
                   remaining NP CAHs so it could reassess whether these CAHs should
                   retain their certifications as well.
                   CMS did not concur with our second recommendation, which originally
                   read “revise the CAH Conditions of Participation to include additional
                   location-related requirements.” CMS noted that the existing distance and
                   rural requirements have been uniformly applied to all CAHs certified since
                   January 2006 and stated that establishing new criteria could be duplicative
                   and overly burdensome to implement. CMS also stated that it believes the
                   CAH certification should not be tied to criteria that have the potential to
                   change rapidly, such as the types of services offered.
                   We have revised our second recommendation to better reflect our intent
                   and to acknowledge that creating alternative location requirements would
                   require a legislative change. We now recommend that CMS seek
                   legislative authority to revise the CAH Conditions of Participation to
                   include alternative location-related requirements. Beneficiary access may
                   depend on factors other than distance to another provider or rural location.
                   CAHs that are providing important access to beneficiaries but are not
                   meeting the current distance or rural requirements could possibly retain
                   their certifications by meeting alternative location-related requirements.
                   These requirements could be tied to stable characteristics, as opposed to
                   rapidly fluctuating criteria, of nearby hospitals or the surrounding

Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                             19
                   communities. Examples of such stable characteristics could include
                   whether the nearby hospital was a specialty hospital or an acute-care
                   hospital or whether the surrounding community had a high poverty rate.
                   We continue to encourage CMS to reference States’ NP criteria when
                   developing additional location-related requirements.
                   CMS concurred with our third and fourth recommendations—to
                   periodically reassess CAHs’ compliance with all location-related
                   Conditions of Participation and to apply its uniform definition of
                   “mountainous terrain” to all CAHs. CMS noted that it had recently issued
                   two memorandums on these issues, one requiring that all non-NP CAHs
                   be recertified periodically on the distance and rural requirements and one
                   that establishes a uniform definition of “mountainous terrain.” CMS
                   stated that these memorandums now represent CMS policy to which CMS
                   regional offices, State survey agencies, and accrediting organizations with
                   CMS-approved Medicare CAH accreditation programs will be expected to
                   adhere when certifying and recertifying CAHs. We look forward to seeing
                   CMS’s plans for ensured compliance with both of these new policies.
                   For the full text of CMS’s comments, see Appendix D.




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                            20
                   APPENDIX A
                   Distance and Rural Requirements


                   The material in this appendix is quoted verbatim from the sources listed in
                   the footnotes.
                   (b) Standard: Location in a rural area or treatment as rural. The critical
                   access hospital (CAH) meets the requirements of either paragraph
                   (b)(1) or (b)(2) of this section or the requirements of either (b)(3) or
                   (b)(4) of this section:
                              (1) The CAH meets the following requirements:
                                       (i) The CAH is located outside any area that is a
                                       Metropolitan Statistical Area, as defined by the Office of
                                       Management and Budget, or that has been recognized as
                                       urban under the regulations in § 412.64(b), excluding
                                       paragraph (b)(3) of this chapter.52
                                           The term urban area means—
                                            (A) A Metropolitan Statistical Area or a Metropolitan
                                            division (in the case where a Metropolitan Statistical
                                            Area is divided into Metropolitan Divisions), as defined
                                            by the Executive Office of Management and Budget; or
                                            (B) For discharges occurring on or after
                                            October 1, 1983, and before October 1, 2007, the
                                            following New England counties are deemed to be parts
                                            of urban areas under section 601(g) of the Social
                                            Security Amendments of 1983
                                            (Pub. L. 98-21, 42 U.S.C. 1395ww (note); Litchfield
                                            County, Connecticut; York County, Maine; Sagadahoc
                                            County, Maine; Merrimack County, New Hampshire;
                                            and Newport County, Rhode Island.53
                                       (ii) The CAH has not been classified as an urban hospital
                                       for purposes of the standardized payment amount by the
                                       Centers for Medicare & Medicaid Services or the Medicare
                                       Geographic Classification Review Board under
                                       § 412.230(e) of this chapter, and is not among a group of


                   52
                        42 CFR 485.610(b). 

                   53
                        42 CFR 412.64 (b)(ii). 




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                    21
                                      hospitals that have been redesignated to an adjacent urban
                                      area under § 412.232 of this chapter.54
                              (2) The CAH is located within a Metropolitan Statistical Area
                              (MSA), as defined by the Office of Management and Budget
                              (OMB), but is being treated as being located in a rural area in
                              accordance with § 412.103 of this chapter.55

                                  	 A prospective payment hospital that is located in an urban
                                     area (as defined in subpart D of this part) may be
                                     reclassified as a rural hospital if it submits an application in
                                     accordance with paragraph (b) of this section and meets
                                     any of the following conditions:

                                      (A) The hospital is located in a rural census tract of a MSA
                                      as determined under the most recent version of the
                                      Goldsmith Modification, the Rural-Urban Commuting Area
                                      codes, as determined by the Office of Rural Health Policy
                                      (ORHP) of the Health Resources and Services
                                      Administration, which is available via the ORHP Web site
                                      at: http://www.ruralhealth.hrsa.gov or from the U.S.
                                      Department of Health and Human Services, Health
                                      Resources and Services Administration, Office of Rural
                                      Health Policy, 5600 Fishers Lane, Room 9A–55, Rockville,
                                      MD 20857.

                                      (B) The hospital is located in an area designated by any law
                                      or regulation of the State in which it is located as a rural
                                      area, or the hospital is designated as a rural hospital by
                                      State law or regulation.

                                      (C) The hospital would qualify as a rural referral center as
                                      set forth in § 412.96, or as a sole community hospital as set
                                      forth in § 412.92, if the hospital were located in a rural
                                      area.

                                      (D) For any period after September 30, 2004 and before
                                      October 1, 2006, a CAH in a county that, in FY 2004, was
                                      not part of a MSA as defined by the Office of Management
                                      and Budget, but as of FY 2005 was included as part of an

                   54
                        42 CFR 485.610(b). 

                   55
                        Ibid. 




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                   22
                                      MSA as a result of the most recent census data and
                                      implementation of the new MSA definitions announced by
                                      OMB on June 6, 2003, may be reclassified as being located
                                      in a rural area for purposes of meeting the rural location
                                      requirement in § 485.610(b) of this chapter if it meets any
                                      of the requirements in paragraphs (a)(1), (a)(2), or (a)(3) of
                                      this section.56

                            (3) Effective for October 1, 2004 through September 30, 2006, the
                            CAH does not meet the location requirements in either paragraph
                            (b)(1) or (b)(2) of this section and is located in a county that, in
                            FY 2004, was not part of a Metropolitan Statistical Area as defined
                            by the Office of Management and Budget, but as of FY 2005 was
                            included as part of such a Metropolitan Statistical Area as a result
                            of the most recent census data and implementation of the new
                            Metropolitan Statistical Area definitions announced by the Office
                            of Management and Budget on June 3, 2003.57

                            (4) Effective for October 1, 2009 through September 30, 2011, the
                            CAH does not meet the location requirements in either paragraph
                            (b)(1) or (b)(2) of this section and is located in a county that, in
                            FY 2009, was not part of a Metropolitan Statistical Area as defined
                            by the Office of Management and Budget, but, as of FY 2010, was
                            included as part of such a Metropolitan Statistical Area as a result
                            of the most recent census data and implementation of the new
                            Metropolitan Statistical Area definitions announced by the Office
                            of Management and Budget on November 20, 2008.58

                   (c) Standard: Location relative to other facilities or necessary provider
                   certification. The CAH is located more than a 35-mile drive (or, in the
                   case of mountainous terrain or in areas with only secondary roads
                   available, a 15-mile drive) from a hospital or another CAH, or before
                   January 1, 2006, the CAH is certified by the State as being a necessary
                   provider of health care services to residents in the area. A CAH that is
                   designated as a necessary provider on or before December 31, 2005, will
                   maintain its necessary provider designation after January 1, 2006.59



                   56
                      42 CFR 412.103. 

                   57
                      42 CFR 485.610(b). 

                   58
                      Ibid. 

                   59
                      42 CFR 485.610(c). 




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                  23
                            	 Mountainous terrain is –

                                 (A) Located in a mountain range; and
                                 (B) Has either of the following characteristics:
                                         a.	 Consists of extensive sections of roads with steep
                                             grades (i.e., greater than 5 percent), continuous
                                             abrupt and frequent changes in elevation or
                                             direction, or any combination of horizontal and
                                             vertical alignment that causes heavy vehicles to
                                             operate at crawl speeds for significant distances or
                                             at frequent intervals; or
                                         b.	 The roads on the travel route are considered by the
                                             State Transportation or Highway agency to be
                                             located in mountainous terrain based on
                                             significantly more complicated than usual
                                             construction techniques required to achieve
                                             compatibility between the road alignment and
                                             surrounding rugged terrain.
                                 (C) A letter from the State Transportation or Highway agency
                                     specific to the travel route(s) in question is required to
                                     support the claim of mountainous terrain.60

                            	 A primary road is -

                                 (A) A numbered federal highway, including interstates,
                                     intrastates, expressways or any other numbered federal
                                     highway; or
                                 (B) A numbered State highway with 2 or more lanes each way;
                                     or
                                 (C) A road shown on a map prepared in accordance with the
                                     U.S. Geological Survey’s Federal Geographic Data
                                     Committee (FGDC) Digital Cartographic Standard for
                                     Geologic Map Symbolization as a “primary highway,
                                     divided by median strip.”61




                   60
                      CMS, Clarification of the Critical Access Hospital (CAH) Criteria for Rural Location
                   and Mountainous Terrain Distance Standard, April 19, 2013 (S&C: 13-26-CAH).
                   Accessed at http://cms.gov on April 25, 2013.
                   61
                      CMS, State Operations Manual, Pub. No. 100-07, ch. 2, § 2256A. Accessed at
                   http://cms.gov on July 7, 2011.



Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                         24
                   APPENDIX B
                   Detailed Methodology
                   Determining Whether CAHs Would Meet the Distance and Rural
                   Requirements


                   Critical Access Hospitals (CAH) would meet the distance requirement by
                   being located:
                           a drive of more than 35 miles from a hospital or another CAH or
                       	 a drive of more than 15 miles from a hospital or another CAH in
                          areas of mountainous terrain or areas where only secondary roads
                          are available.
                   CAHs that would not meet the distance requirement are located:
                           a drive of 15 or fewer miles from a hospital or another CAH or
                           a drive of 35 or fewer miles from a hospital or another CAH, with
                            15 or fewer miles of the drive through mountainous terrain or on
                            secondary roads.
                   CAHs would meet the rural requirements by:
                           being located outside Metropolitan Statistical Areas (MSA),
                           being located in rural census tracts of MSAs,
                       	 being located in areas designated by State law or regulation as
                          rural or by being designated as rural hospitals by State law or
                          regulation, or
                       	 qualifying as rural referral centers or sole community hospitals if
                          they were located in rural areas.
                   CAHs that would not meet the rural requirements are located in MSAs
                   and:
                       	 are not located in areas designated as rural by State law or
                          regulation and are not designated as rural hospitals by State law or
                          regulation or
                       	 would not qualify as rural referral centers or sole community
                          hospitals if they were located in rural areas.




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                25
                   Data Sources and Collection
                   Rural requirement.
                        1.	 We identified MSAs using the U.S. Census Bureau’s

                            2010 Topologically Integrated Geographic Encoding and 

                            Referencing system’s (TIGER) MSA files.62 These files are 

                            available online at 

                            http://www.census.gov/geo/www/tiger/shp.html. 

                        2.	 We identified rural census tracts using the U.S. Department of
                            Agriculture’s Economics Research Service’s Rural-Urban
                            Commuting Areas (RUCA) codes. These codes are available
                            online at
                            http://www.ers.usda.gov/data/ruralurbancommutingareacodes/.
                        3.	 We identified areas or CAHs that are designated as rural because of
                            State laws or regulations by surveying States’ Departments of
                            Rural Health.
                        4.	 We identified CAHs that would meet the rural requirement by
                            meeting the rural referral center or sole community hospital criteria
                            by conducting structured interviews with States’ Departments of
                            Rural Health.
                   Data Analysis
                   Hospital locations. We included 6,080 CAHs and hospitals in our
                   analysis. Before plotting CAHs’ and hospitals’ locations, we “cleaned”
                   each address to remove redundant characters and typographical errors.
                   When we encountered ambiguities in the addresses, we relied on CAHs’
                   and hospitals’ Web sites to determine their correct addresses. When we
                   were unable to confirm CAHs’ or hospitals’ addresses online, we called
                   them directly.
                   To convert the CAHs’ and hospitals’ addresses into geographic
                   coordinates, we used Texas A&M Geoservice’s geocoder.63 Geospatial
                   software, like ArcGIS, does not recognize traditional street addresses.
                   Instead, data must be entered into the software as geographic coordinates
                   (i.e., latitude and longitude).
                   The geocoder was not able to accurately geocode the addresses of
                   363 CAHs and 820 hospitals, most of which are located in remote areas.
                   We searched for these CAHs’ and hospitals’ names and addresses in


                   62
                     TIGER files are digital spatial representations of census data. 

                   63
                     Texas A&M University Geoservices, Geoservice’s Geocoder. Accessed at

                   http://www.geoservices.tamu.edu/Services/Geocode/Default.aspx on October 23, 2012. 




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                      26
                   Google Maps and then visually confirmed their locations on the satellite
                   images. Once we confirmed a CAH’s or hospital’s location, we recorded
                   the geographic coordinates of its main entrance (or, if we could not
                   identify the main entrance, what appeared to be the middle of the length of
                   road in front of the CAH or hospital) as provided by Google Maps.
                   Distance requirement. To find the driving distances between CAHs and
                   their nearest hospitals or other CAHs, we used ArcGIS’s Network Analyst
                   tool. We identified multiple routes from each CAH to its nearest hospitals
                   or other CAHs. For analysis purposes, we selected either the shortest
                   route that caused a CAH to not meet the distance requirement or the
                   shortest overall route if all of the routes showed that a CAH would meet
                   the distance requirement.
                   We used the North America Equidistant Conic coordinate system to
                   conduct the analysis in ArcGIS. North America Equidistant Conic was
                   appropriate for our analysis because it reduces shape distortions far better
                   than other geographic systems by accounting for the curvature of the earth.
                   Limiting distortions is an important consideration when conducting a
                   distance analysis, as they can lead to inaccuracies in distance
                   measurements.
                   Additionally, to differentiate between primary and secondary roads, we
                   used Shield Codes. Shield Codes are numbers assigned to roadways that
                   describe the type of road. Because we defined “secondary road” as any
                   road that is not a numbered Federal highway (including interstates,
                   intrastates, expressways, or any other numbered Federal highway), we
                   categorized primary roads as those roads with Shield Codes 1 or 2, which
                   represent interstates and Federal highways.64
                   To identify CAHs that have more than 15 miles of their routes through
                   mountainous terrain, we surveyed States’ Departments of Transportation.
                   We sent them detailed maps of all routes within their States that were more
                   than 15 and up to 35 miles and had 15 or fewer miles on secondary roads.
                   We asked States’ Departments of Transportation to inspect each route and
                   to identify the number of miles that travel through mountainous terrain.
                   Emergency services at hospitals near CAHs. To determine whether CAHs
                   that would not meet the distance requirement were located near hospitals
                   or other CAHs with emergency departments, we used the 2011 NCH
                   inpatient and outpatient file to identify CAHs and hospitals that had been


                   64
                     Tom Tom, Data and Maps for ArcGIS, U.S. and Canada Detailed Streets Metadata,
                   2012.



Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                     27
                   paid for claims submitted under an emergency department revenue center
                   (0450, 0451, 0452, 0456, and 0459).
                   Rural requirement. To identify CAHs that are located in rural census
                   tracts, we identified the census tract that each CAH is located in using
                   Texas A&M Geoservice’s geocoder. We then matched census tracts to
                   RUCA codes to identify CAHs located in rural census tracts. Any census
                   tract with a RUCA code between 4 and 10 is classified as rural.65
                   Finally, we identified CAHs that: (1) are located in areas designated as
                   rural by State law or regulation, (2) are designated as rural hospitals by
                   State law or regulation, or (3) were granted the certification because they
                   proved that they would qualify as rural referral centers or sole community
                   hospitals if they were located in rural areas. We used the results from our
                   surveys and structured interviews with States’ Departments of Rural
                   Health to identify CAHs that would meet one of these criteria.
                   Potential savings. We removed all professional services from the CAH
                   outpatient claims.66 To do this, we removed all services with revenue
                   center codes in the 095X, 096X, 097X, and 098X series. We were not
                   able to remove professional services from the CAH inpatient claims, as
                   payment amounts for individual services are not available on the claims.
                   Approximately 31 percent of CAHs that would not meet the location
                   requirements had professional claims in their outpatient, and therefore
                   presumably inpatient, claims.
                   We used status indicator codes to identify outpatient clinic or emergency
                   department visits, significant procedures, services that were provided
                   along with significant procedures, imaging services, and services paid
                   under a fee schedule or payment system other than the outpatient
                   prospective payment system (OPPS).67 Specifically, we analyzed all
                   outpatient services with status indicators V, S, T, N, X, Q3, and A.68
                   The Centers for Medicare & Medicaid Services (CMS) pays outpatient
                   services with status indicator T at half of their regular rate when provided

                   65
                      University of Washington, Rural Health Research Center, RUCA Data. Accessed at
                   http://www.depts.washington.edu/uwruca/ruca-codes.php on October 23, 2012.
                   66
                      We removed professional services from CAH outpatient claims to allow for more
                   accurate comparisons to the base rates for outpatient services. Payments made under the
                   OPPS do not include professional services.
                   67
                      Most of the services paid under a fee schedule or payment system other than the OPPS
                   were paid under the physicians’ fee schedule. We excluded any services that were
                   subject to carrier judgment (i.e., for which the Healthcare Common Procedure Coding
                   System coverage code was C).
                   68
                      CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 4, §§ 10.1 and 10.4.
                   Accessed at http://cms.gov on January 3, 2011.



Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                         28
                   with other significant procedures (status indicators S or T) under the
                   OPPS.69 To account for this in our analysis, we identified all services with
                   a status indicator T that were part of a claim that included another
                   significant procedure. For claims that included services with status
                   indicators S and T, we reduced the base rates by 50 percent for all services
                   with status indicator T. For claims that included only multiple services
                   with status indicator T, we reduced the base rates by 50 percent for all
                   services except the service with the highest reimbursements. For this
                   service, the base rate was not adjusted.
                   CMS pays outpatient services with status indicator Q3 either at the regular
                   base rate or at a composite base rate, depending on the other services
                   provided during the visit.70 For claims that had only one Q3 claim, we
                   included them in our analysis at their regular base rates. For claims that
                   had more than one Q3 claim, when feasible, we applied the appropriate
                   grouping logic to determine the composite base rate for those claims.
                   We used Current Procedural Terminology codes to identify outpatient
                   laboratory services.71
                   Finally, when estimating the savings that Medicare and beneficiaries
                   would have realized if Medicare had decertified half of all CAHs that
                   would not meet the location requirements in 2011, we selected a random
                   sample of 425 CAHs to include in the analysis.




                   69
                      CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 4, §§ 10.4–10.5.
                   Accessed at http://cms.gov on January 3, 2011. 

                   70
                      CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 4, § 10.2.1. 

                   Accessed at http://cms.gov on January 3, 2011. 

                   71
                      Current Procedural Terminology codes describe medical services and procedures.




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                       29
                      APPENDIX C
                      Example of Critical Access Hospital Locations Relative to
                      Those of Other Hospitals
                      We selected one representative region of the country to provide a visual
                      example of critical access hospitals’ (CAH) location relative to those of
                      other hospitals. The map below identifies all CAHs and hospitals in
                      Missouri and surrounding States. Missouri has 36 CAHs; 69 percent of
                      them would not meet the location requirements if required to re-enroll in
                      Medicare. CAHs that would meet the location requirements are shown on
                      the map as green checkmarks. CAHs that would not meet the location
                      requirements are shown as red “X” symbols. Non-CAH hospitals are
                      shown as black dots.




Source: Office of Inspector General analysis of CAHs’ and hospitals’ locations, 2012.




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                              30
                   APPENDIX D
                   Agency Comments




                                    DEPARTMENT OF HEALTH & HUMAN SERVICES •                               Centers for Medicare & Medicaid Services


                                                                                                          Administrator
                                                                        JUN 1 7 2013                      Washington, DC 20201




                                 TO: 	          Daniel R. Levinson
                                                Inspecto;; General

                                 FROM: 	        Ma~n T:n<enner
                                                                  /S/
                                                Administnltot

                                 SUBJECT: 	 Office oflnspector General (OIG) Draft Report: "Most Critical Access Hospitals
                                            Would Not Meet the Location Requirements" (OEI-05-12-00080)


                                 Thank you for the opportunity to review and comment on the above-subject draft report. Tne
                                 OIG conducted an analysis of whether or not facilities currently certified as CAHs meet the
                                 location requirements specified in Section 1820 of the Social Security Act. OlG found that 849
                                 CAHs, or 64 percent of all CAHs, would not meet the current location requirements if required
                                 to re-enroll. Eighty-eight percent of these 849 CAHs are necessary provider (NP), CAHs; (i.e.,
                                 CAHs that were exempted from meeting the distance requirements on the basis of designation by
                                 their state as an NP). The NP designation was removed by law effective January I, 2006 by the
                                 Medicare Prescription Drug, Improvement, and Modernization Act of2003 (MMA). However,
                                 the MMA allowed existing NP CAHs to retain their NP designations indefinitely, as long as they
                                 continue to meet all other CAH requirements. OIG's report also notes that the President, in his
                                 September 2011 Plan for Economic Growth and Deficit Reduction proposed eliminating the
                                 critical access certification for CAHs fewer than I 0 miles from another hospital, and the
                                 President's proposed budget for FY 2014 includes this proposal .

                                 The OIG estimated savings that the Medicare program and beneficiaries would realize if CAH
                                 status were removed for all CAHs, including NP CAHs, which do not meet the statutory location
                                 criteria. Basing its estimate on a review of2011 Medicare claims data, the OIG estimates that
                                 Medicare and beneficiaries could have saved on average over $1.3 million per de-certified CAH
                                 in 2011 if payments were based on the inpatient and outpatient prospective payment systems fee
                                 schedules rather than the CAH payment methodology, which is based on I 0 I percent of a CAH's
                                 reasonable costs.

                                  It also examined the availability of emergency services in the hospitals and CAHs nearest to
                                  those CAHs which would not satisfy the location requirements. It found that emergency services
                                  were available in 93 percent of these other facilities.

                                  The OIG recommendations and CMS's responses to those recommendations are discussed
                                  below.




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                                                                 31
Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                            32
Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                            33
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Ann Maxwell, Regional
                   Inspector General for Evaluation and Inspections in the Chicago regional
                   office; Thomas Komaniecki, Deputy Regional Inspector General; and
                   Laura Kordish, Deputy Regional Inspector General.
                   Lisa Minich served as the team leader for this study, and Elliot Curry and
                   Brian Jordan served as the lead analysts. Central office staff who provided
                   support include Clarence Arnold, Meghan Kearns, Christine Moritz, and
                   Tasha Trusty.




Most Critical Access Hospitals Would Not Meet the Location Requirements (OEI-05-12-00080)
                                                                                              34
                Office of Inspector General

                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
